OIG Investigative Reports, Financial Aid Director of Cosmetology School Sentenced for Falsifying Records
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
CONTACT:   Gina Balaya
(313) 226-9758
FOR IMMEDIATE RELEASE:
Flint, Michigan
U.S. Department of Justice
United States Attorney
Eastern District of Michigan
211 W.Fort Street
Suite2001
Detroit, Michigan 48226
November 26, 2007
FINANCIAL AID DIRECTOR OF COSMETOLOGY SCHOOL SENTENCED FOR FALSIFYING RECORDS
A 54-year-old Flint woman who falsified records in order to obtain pell grant funds was sentenced to 12 months and a day, United States Attorney Stephen J. Murphy announced today.
Receiving the sentence today before United States District Judge Paul V. Gadola was Margaret Gurzick, the financial aid director of Mr. David's School of Cosmetology.
In addition to the prison sentence, Judge Gadola also ordered Gurzick to pay restitution in the amount of $225,017.00.
The information presented to the court at the time of Gurzick's guilty plea in July of this year, established that Gurzick, at the direction of co-defendant Kathy Brokaw-Hill , co-owner of Mr. David's, knowingly falsified documents and aided and abetted each other to do so in preparation for a Department of Education audit regarding disbursements under the Pell Grant Program. An audit of Mr. David's revealed that student files contained forged and altered documents including GED transcripts and diplomas. As a result of Gurzick's and Brokaw-Hill's actions, Mr. David's received financial aid assistance it was not entitled to. The total loss to the Department of Education was $225,017.00.
Co-defendant Brokaw-Hill also pleaded guilty in July of this year and is scheduled to be sentenced on January 9, 2008.
U.S. Attorney Murphy thanked the Department of Education, Office of Inspector General , for their assistance in the successful investigation of the case. It was prosecuted by Assistant United States Attorney Nancy Abraham.
Printable view
Share this page
Last Modified: 11/27/2007
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov